Office of Inspector General
    Audit Report


  QUALITY CONTROL REVIEW FOR
 CONTROLS OVER THE ENTERPRISE
       SERVICES CENTER
      Department of Transportation
       Report Number: QC-2012-003
      Date Issued: November 4, 2011
           U.S. Department of
                                                                Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Quality Control Review of Controls                                     Date:    November 4, 2011
           Over the Enterprise Services Center
           Report Number QC-2012-003

  From:                                                                                Reply to
                                                                                       Attn. of:   JA-20
           Louis C. King
           Assistant Inspector General for Financial and
           Information Technology Audits

    To:    Assistant Secretary for Budget and Programs/Chief Financial Officer


           The Department of Transportation's (DOT) Enterprise Services Center (ESC),
           located at the Federal Aviation Administration’s (FAA) Mike Monroney
           Aeronautical Center in Oklahoma City, operates under the direction of DOT's
           Chief Financial Officer, and provides financial management services to DOT and
           several Federal agencies. 1

           The Office of Management and Budget (OMB) requires ESC, as a management
           services provider, either to (1) provide ESC's user organizations with independent
           audit reports on the design and effectiveness of its internal controls, or (2) allow
           user auditors to perform tests of its controls. 2 To meet OMB's requirement, DOT's
           Office of Inspector General (OIG) contracted with Clifton Gunderson LLP to
           perform an examination of ESC's description of its system of controls and the
           suitability of the design and operating effectiveness of these controls for the period
           October 1, 2010, to June 30, 2011, and issue an independent service auditor's
           report. We required the contractor to perform this attestation engagement in
           accordance with generally accepted Government auditing standards and the
           American Institute of Certified Public Accountants' Statement on Standards for
           Attestation Engagements Number 16, Reporting on Controls at a Service
           Organization.

           1
             The National Endowment for the Arts, the Institute of Museum and Library Services, the Commodity Futures Trading
              Commission, Consumer Products Safety Commission, the National Credit Union Administration, and the
              Government Accountability Office.
           2
             OMB Memorandum M-08-24.
                                                                                    2


Clifton Gunderson LLP's examination covered both the Delphi Financial
Management System 3 and the Consolidated Automation System for Time and
Labor Entry (CASTLE) hosted at ESC. CASTLE is used to support DOT
operations only.

In its examination, Clifton Gunderson LLP found that in all material respects:

       • ESC's description of controls fairly presents ESC's system that was
         designed and implemented throughout the period October 1, 2010, to June
         30, 2011.

       • The controls were suitably designed to provide reasonable assurance that
         the controls' objectives would be achieved if the controls operated
         effectively throughout the period October 1, 2010, to June 30, 2011, and
         user entities applied the complementary user controls contemplated in the
         design of ESC's controls throughout the period October 1, 2010, to June 30,
         2011.

       • The controls tested, together with the complementary user entities' controls,
         if operating effectively, were those necessary to provide reasonable
         assurance that the control objectives were achieved, operated effectively
         throughout the period October 1, 2010, to June 30, 2011.

We performed a quality control review (QCR) of Clifton Gunderson LLP's report
and related documentation. Our QCR, as differentiated from an attestation
engagement performed in accordance with generally accepted Government
auditing standards, was not intended for us to express, and we do not express, an
opinion on ESC's description of controls, the suitability of the design of these
controls and the operating effectiveness of the controls tested. Clifton Gunderson
LLP is responsible for its independent service auditor's report dated August 1,
2011, and the conclusions expressed in that report. However, our QCR disclosed
no instances where Clifton Gunderson LLP did not comply, in all material
respects, with generally accepted Government auditing standards.

Clifton Gunderson performed additional testing and provided a follow-up letter to
OIG dated September 30, 2011, reporting no significant changes to ESC’s control
environment since June 30, 2011 (the effective date of their SSAE 16 report).

As part of this attestation engagement, Clifton Gunderson LLP made
recommendations to improve ESC's operations. These recommendations are in this
report’s Exhibit.


3
    The Delphi system includes ESC PRISM, a Federal acquisition system.
                                                                               3


Actions Required on Clifton Gunderson's Recommendations

In his response to OIG dated October 20, 2011, the Deputy Chief Financial Officer
concurred with the recommendations and committed to the completion of
corrective actions (see Appendix in this report). In accordance with DOT Order
8000.1C, the recommendations will remain open pending receipt of documentary
evidence that these appropriate corrective actions are complete.

We appreciate the courtesies and cooperation of Department of Transportation
representatives during this engagement. If you have any questions concerning this
report, please call me at (202) 366-1407, or Nathan Custer, Program Director, at
(202) 366-5540.

Attachments

                                       #

cc: Chief Information Officer, DOT
    Deputy Chief Financial Officer, DOT
    Assistant Administrator for Financial Services/CFO, FAA
    Assistant Administrator for Information Services/CIO, FAA
    Assistant Administrator for Region/Center Operations, FAA
    Director, Mike Monroney Aeronautical Center, FAA
    Martin Gertel, M-1
    Anthony Williams, AAE-001
                                                                                4


EXHIBIT. RECOMMENDATIONS OF CLIFTON GUNDERSON, LLP,
INDEPENDENT AUDITOR

Clifton Gunderson LLP made the following recommendations during its review of
general, application, and operational controls over DOT's ESC during fiscal year
2011. OIG agrees that DOT management should implement the following actions
to enhance ESC controls.

                          Configuration Management
      Develop and implement a repeatable System Development Life Cycle
      process for Delphi in accordance with NIST 800-64 and incorporate
      information security throughout the life cycle stages. Already in the fourth
      phase of this cycle (Operation), emphasis should now be placed on a)
 1    Maintenance: Modification of the existing platform by the addition of
      hardware and software) and b) Disposal: Orderly termination of the system,
      safeguarding vital system information, and migrating data processed by the
      system to a new system, or preserving it in accordance with applicable
      records management regulations and policies.
      Complete the implementation of Security Configuration Baselines in
 2    conformity with the United States Government Configuration Baseline
      (USGCB) initiative.




Exhibit. Recommendations of Clifton Gunderson, LLP, Independent
Auditor
                                                                                                   5




  APPENDIX. AGENCY COMMENTS


                Memorandum
U.S. Department of
Transportation
Office of the Secretary
Of Transportation


  Subject: Management Response to the SSAE-16 Audit                       Date: October 20, 2011
            of ESC’s Services Information Security Controls

  From:      David J. Rivait
             Deputy Chief Financial Officer

  To:       Louis C. King
            Assistant Inspector General for Financial and Information
            Technology Audits



  The Department provides diligent oversight as it works to ensure the quality, accuracy, and
  integrity of the services provided by the Enterprises Services Center (ESC). The Office of
  Inspector General’s (OIG) annual audit utilizing Statement of Standards for Attestation
  Engagements – 16 (SSAE-16), by its contractor, Clifton Gunderson, LLP (CG), is integral to
  these efforts. Once again this year the audit provided insights that enable us to further improve
  our already strong management and controls over financial systems in an ever-changing cyber
  security environment.

  CG issued a unqualified opinion for the period October 1, 2010 to June 30, 2011. It found that, in
  all material respects, the ESC’s description of controls fairly presents the ESC system that was
  designed and implemented. Further, the controls were suitably designed to provide reasonable
  assurance that their objectives would be achieved if operated effectively throughout the period.

  The Department concurs with CG’s recommendations and has identified corrective actions.
  Consistent with past practices, the Office of the Assistant Secretary for Budget and
  Performance/CFO and ESC worked with the auditors throughout this year’s SSAE-16 audit to
  identify and schedule corrective actions as audit findings were documented, to ensure timely and
  appropriate management action. These corrective action plans will be forwarded to you under
  separate cover prior to October 31, 2011.

  As a Federal Shared Service Provider (FSSP) designated by the Office of Management
  and Budget (OMB) to provide a state-of-the-art financial system and quality accounting services
  to other Federal agencies, ESC has demonstrated its strong commitment to ensuring that it’s
  Financial Management Services meet or exceed all information security requirements.




  Appendix. Agency Comments
                                                                                    6


Thank you for your continuing support and assistance in this effort.



cc: Maria Dowds, Joann Adam, Robert Owens, Wendy Calvin, Marshal Gimpel,
Mike Upton, Keith Burlison, Bo Peeler, Steve Aube, Janet Shell, and Kent Mitchell




Appendix. Agency Comments
